No. 19-5244
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
WILLIAM FORD,
Petitioner-Appellant,
v.
MIKE PARRIS, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Apr 15, 2020
DEBORAH S. HUNT, Clerk

ORDER

;•!

William Ford, a Tennessee prisoner proceeding pro se, appeals the district court’s judgment
denying his 28 U.S.C. § 2254 petition for a writ of habeas corpus. Ford has applied for a certificate
of appealability (“COA”). See Fed. R. App. P. 22(b)(1). He has also moved for leave to proceed
in forma pauperis (“IFP”) on appeal. See Fed. R. App. P. 24(a)(5).
In 1999, Ford shot and killed Dilanthious Drumwright as Drumwright was walking home
from school with a group of other young people. A grand jury indicted Ford for first-degree
murder, and the State elected to seek the death penalty. The evidence presented at trial established
that Ford had shot the unarmed victim in the back, and a witness indicated that Ford had said
“LMGK” and “VLK” before firing the weapon. State v. Ford, No. W2000-01205-CCA-R3CD,
2002 WL 1592746, at *3 (Tenn. Crim. App. July 12, 2002). “LMGK” was established to mean
“Lemoyne Garden Killer” and “VLK” was established to mean “Vice Lord Killer.” Id.1 The jury
convicted Ford as charged and sentenced him to life imprisonment without the possibility of
i

According to evidence presented at a subsequent post-conviction hearing, Ford was a member of
the Crips gang, and the victim was a member of the rival Vice Lords gang. See Ford v. State, No.
W2014-02105-CCA-R3-PC, 2015 WL 6942508, at *2 (Tenn. Crim. App. Nov. 10, 2015).

No. 19-5244
-2-

parole. Id. at *2. The Tennessee Court of Criminal Appeals affirmed, id. at * 13, and the Tennessee
Supreme Court denied leave to appeal. Ford later moved unsuccessfully for state post-conviction
relief. See Ford v. State, W2014-02105-CCA-R3PC, 2015 WL 6942508, at *6 (Tenn. Crim. App.
Nov. 10, 2015).
Ford then filed this federal habeas petition, arguing that: (1) trial counsel was ineffective
for failing to present witnesses in support of a theory of self-defense and for telling the jury that a
witness would testify; (2) trial counsel was ineffective for failing to request the pattern jury
instruction on the burden of proof; (3) trial counsel was ineffective for failing to move to withdraw
based on her apparent bias against him; (4) post-conviction counsel was ineffective for failing to
present proof that trial counsel was ineffective for failing to move to withdraw; and
(5) post-conviction counsel was ineffective for failing to present several ineffective-assistance
claims. After the warden filed a response, Ford filed a motion to stay the case while he sought
newly discovered evidence of his actual innocence. The district court denied the motion for a stay,
and Ford then filed a reply to the warden’s response. In 2019, the district court denied Ford’s
habeas petition in part on the merits and in part for unexcused procedural default.
In his COA application, Ford argues that the district court erred in denying relief on his
first, second, and third grounds. He has forfeited review of his remaining grounds by failing to
argue them in his COA application. See Elzy v. United States, 205 F.3d 882, 886 (6th Cir. 2000);
see also Jackson v. United States, 45 F. App’x 382, 385 (6th Cir. 2002) (per curiam).
A COA may issue only if a petitioner makes “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

“A petitioner satisfies this standard by

demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). When the
district court has denied a § 2254 petition on procedural grounds, a petitioner must show “that
jurists of reason would find it debatable whether the petition states a valid claim of the denial of a

No. 19-5244
-3 -

constitutional right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
I.
Ford first argues that his trial counsel was ineffective for failing to present a theory of
self-defense when counsel: (1) failed to call Lori Smith, who Ford says would have testified that
other people were firing weapons at the scene (“subclaim (i)”); (2) told the jury that Lori Smith
would testify but never called her as a witness (“subclaim (ii)”); and (3) failed to call Ford, who
had no prior felony convictions, to testify on his own behalf (“subclaim (iii)”).
Subclaim (i). Ford faults trial counsel for failing to call Lori Smith, who he claims would
have testified “that ‘it was four people out there shooting’ when the victim was struck and killed.”
At trial, Ford’s counsel similarly told the jury during his opening statement, “Lori Smith will
testify, I believe, that several people were armed and several fired weapons.” Ford, 2002 WL
1592746, at *11. Ford argues that Smith’s testimony would have helped to establish his claim of
self-defense.

But Smith was not called to testify, and “a defense theory involving other

shooters ... never manifested itself in proof.” Id. at *12. The defense instead called only one
witness, Derrick Lewis, who testified to Ford’s intoxication on the day of the offense. In his
petition for state post-conviction relief, Ford challenged defense counsels’ failure to present
testimony from five other witnesses but did not challenge counsels’ failure to call witness Lori
Smith.2 Because Ford failed to exhaust available state remedies, Ford’s claim was procedurally
defaulted. See Hodges v. Colson, 727 F.3d 517, 529 (6th Cir. 2013) (“The exhaustion doctrine
requires the petitioner to present the same claim under the same theory to the state courts before
raising it on federal habeas review.”) (citation omitted).

2 In his brief to the Tennessee Court of Criminal Appeals, Ford challenged trial counsels’ failure
to present the testimony of Venus Jones, Demond Gardner, Randy Bennett, Lonnie Maclin, and
Eric Lewis to support his claim of self-defense. At the post-conviction hearing, post-conviction
counsel called these five witnesses to support Ford’s self-defense theory. See Ford, 2015 WL
6942508, at *3.
V.

No. 19-5244
-4As cause to excuse the default of this subclaim, Ford argues that he received ineffective
assistance of post-conviction counsel. Ineffective assistance of post-conviction counsel may
establish cause to excuse a procedural default under two circumstances: First, the complete
abandonment by counsel during state post-conviction proceedings without notice to the petitioner
may establish cause. Maples v. Thomas, 565 U.S. 266, 288-89 (2012). Second, the ineffective
assistance of post-conviction counsel may establish cause—but only as to a petitioner’s
“substantial” claim of ineffective assistance of trial counsel—where a state procedural law or
design prohibits defendants from raising ineffective assistance of trial counsel claims on direct
appeal. See Trevino v. Thaler, 569 U.S. 413, 429 (2013); Martinez v. Ryan, 566 U.S. 1, 17 (2012);
see also Abdur’Rahman v. Carpenter, 805 F.3d 710, 713 (6th Cir. 2015) (“Martinez and Trevino
apply in Tennessee.”). Ford seeks to avail himself of the second circumstance.
To be “substantial,” a claim must have some merit under the standard for ineffective
assistance of counsel set forth in Strickland v. Washington, 466 U.S. 668 (1984). Martinez, 566
U.S. at 14. To prevail on an ineffective-assistance claim, a petitioner must establish that counsel’s
performance was deficient and that he suffered prejudice as a result. Strickland, 466 U.S. at 687.
There is “a strong presumption that counsel’s conduct [fell] within the wide range of reasonable
professional assistance.” Id. at 689.
The district court concluded that Ford could not avail himself of the Martinez/Trevino
exception because this subclaim is not “substantial.” The court explained that Ford did not offer
any proof of what Smith would have said had she been called as a witness. All we know is that
trial counsel’s opening statement suggested that “Lori Smith will testily . . . that several people
were armed and several fired weapons.” Even if we presume that Smith would have so testified,
that is insufficient to make out a substantial claim that Ford’s trial attorney “fell below an objective
standard of reasonableness” or to demonstrate a “reasonable probability that, but for counsel’s
[failure to call this witness], the result of the proceeding would have been different.” Strickland,
466 U.S. at 687-88, 694.

No. 19-5244
-5Ford claims that Smith’s testimony would have helped to establish a claim of self-defense.
At the post-conviction hearing, trial counsel testified that she had spoken to Smith before trial and
that she and her co-counsel had talked about pursuing a self-defense theory but had decided against
it because they “couldn’t find anyone that said that the victim had a gun

or that he looked as if

he was pulling a weapon.” Ford does not refute that point. He argues instead that “the idea that
self-defense would be inapplicable because an unarmed victim could not inflict serious bodily
injury or death wholly misses the point that [Ford] did not know the victim was unarmed.” Ford,
who did not testify at trial, claims that he “reasonably believed that danger from the victim or one
of the victim’s gang members was imminent.” Ford claims this point would have been bolstered
if Smith had testified as counsel promised, “that several people were armed and several fired
weapons.” But that is not the question; the question is whether counsel behaved unreasonably in
failing, to call Smith and whether there is a reasonable probability that her testimony would have
changed the outcome of the trial. The answer is no.
First, five eyewitnesses testified at trial. “All five witnesses identified the defendant as the
shooter and recalled that multiple shots had been fired.” Ford, 2002 WL 1592746, at *1. No one
testified that others were armed or took shots. Smith’s testimony would have been inconsistent
with the testimony of these five.
Second, had Smith testified favorably to Ford, her testimony would have been impeached
with Ford’s own words. Devon Gardner testified at trial that after Ford was arrested, Ford had
written letters to him instructing him to threaten Smith so that she would not testify at his trial.
Those letters were admitted into evidence. The threats were severe. In one letter, for example,
Ford wrote, “Scare them girls and threaten[] them so they wont [sic] show up in court .... Take
care of that ASAP. There [sic] names are Shavaughn Flemings, Lori Smith, and Tiffany White.”
Ford then provided Gardner with Smith’s address, so he could “threaten them not to show up in
court.” In another letter, Ford instructed Gardner to “take care of them females” because “[t]hem
females got to go man. . . . Do it the smart way.”

No. 19-5244
-6These letters surely suggest that, at least before trial, Ford believed that Smith’s testimony
would not have been favorable to him. This is what the district court concluded, stating that “Ford
has not attempted to reconcile his pretrial attempts to scare Smith to prevent her from testifying
with his recent position that his attorney rendered ineffective assistance by failing to call Smith as
a witness.” Defense counsel, however, may have initially concluded that Smith’s testimony could
have helped. Counsel both spoke to Smith and told the jury, in the opening statement, that Smith
would testify that there were multiple shooters. Counsel apparently changed course. We cannot
say that the change of heart was either unreasonable or prejudicial. If Smith had been called, and
if she had actually testified favorably to Ford, her testimony would have been impeached with the
damning evidence that Ford had instructed Gardner to “take care of’ Smith. It stretches credulity
to think that the jury would have believed that Smith, once thought by Ford to be such a threat to
his case that she had to be “scared and threatened” not to appear, was suddenly testifying in Ford’s
favor—truthfully, and in response to no threat at all.
Ford cannot overcome the strong presumption that defense counsels’ decision not to call
Smith was sound trial strategy. See Towns v. Smith, 395 F.3d 251, 258 (6th Cir. 2005) (“We ‘must
indulge a strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the presumption that, under the
circumstances, the challenged conduct might be considered sound trial strategy.’”) (quoting
Strickland, 446 U.S. at 689)). Nor can he show that, had Smith testified, the result of the
proceeding would have been different. Strickland, 466 U.S. at 687. Accordingly, he cannot show
that his ineffective-assistance-of-trial counsel claim “is a substantial one” or “has some merit.”
Martinez, 566 U.S. at 14.
Thus, reasonable jurists could not debate the district court’s conclusion that Ford failed to
establish cause to excuse his procedural default of this subclaim. A COA is not warranted as to
this subclaim.
Subclaim (ii). Ford argues that trial counsel was ineffective for telling the jury in his
opening statement, falsely, that Smith would testify in his defense. The district court concluded

No. 19-5244
-7-

that this subclaim was procedurally defaulted but chose to address it on the merits. This court may
do so as well. See Linscott v. Rose, 436 F.3d 587, 592 (6th Cir. 2006). But Ford has not alleged,
much less established, that counsel was aware at the time of his opening statement that Smith
would not be called to testify. This subclaim therefore does not deserve encouragement to proceed
further.
Subclaim (iii). Ford argues that trial counsel was ineffective for failing to call him to testify
in his own defense. Again, the district court concluded that this subclaim was procedurally
defaulted but chose to address it on the merits, and this court may do so as well. See Linscott, 436
F.3d at 592. As the district court explained, “during a voir dire examination at trial, Ford testified
that he understood that he had the right to testify and that he made the decision not to testify.”
Moreover, at his post-conviction hearing, Ford testified that he “just shot the gun into the air to
scare [the group of Vice Lords] off.” Ford, 2015 WL 6942508, at *2. The Tennessee Court of
Criminal Appeals determined that Ford’s “testimony that he fired shots ‘in the air’ is inconsistent
with . . .the self-defense statute.” Id. at *6 (citing Tenn. Code Ann. § 39-11-611(a); State v.
Blackwood, No. W1999-01221-CCA-R3-CD, 2000 WL 1672343, at *9 (Tenn. Crim. App. Nov.
2, 2000)). “[A] state court’s interpretation of state law . . . binds a federal court sitting in habeas
corpus.” Bradshaw v. Richey, 546 U.S. 74, 76 (2005). Under these circumstances, reasonable
jurists could not debate the district court’s determination that Ford can show neither deficient
performance nor prejudice as to this subclaim.
II.

Ford argues that trial counsel was ineffective for failing to request the pattern jury
instruction on the burden of proof. As the district court explained, however, the trial court
instructed the jury on the presumption of innocence and reasonable doubt. See Ford, 2015 WL
6942508, at *6.

“[W]e must presume that juries follow their instructions.”

Washington v.

Hofbauer, 228 F.3d 689, 706 (6th Cir. 2000). Reasonable jurists therefore could not disagree that
Ford cannot make the required showing of prejudice as to this claim.

No. 19-5244
-8III.
Ford argues that trial counsel was ineffective for failing to move to withdraw based on her
apparent bias against him.3 On post-conviction review, Ford “testified that the lead attorney told
him that she was going to get him electrocuted because he was ‘acting like a little dick.’” Ford,
2015 WL 6942508, at *2. At a pretrial hearing, the trial court asked the same attorney whether
she had “talked harshly to [Ford], called him a, quote, little dick, unquote.” Counsel responded,
“Oh, I admit it, Judge,” but indicated that she thought that she and Ford were “communicating
okay as far as the trial.”
In his post-conviction petition, Ford argued that trial counsel was ineffective for calling
him slang names. But Ford failed to raise this claim in his post-conviction brief to the Tennessee
Court of Criminal Appeals; he instead raised a claim for the trial court’s denial of counsel of his
choice based on trial counsel’s alleged verbal abuse. The district court determined that Ford
procedurally defaulted his ineffective-assistance bias claim by failing to raise it in his post­
conviction appellate proceedings. Reasonable jurists could not disagree. See O’Sullivan v.
Boerckel, 526 U.S. 838, 842 (1999). As cause to excuse his procedural default, Ford argues that
he received ineffective assistance of post-conviction appellate counsel. But the Martinez/Trevino
“exception ‘does not extend to attorney errors in any proceeding beyond the first occasion the State
allows a prisoner to raise a claim of ineffective assistance at trial,’ ‘including appeals from initialreview collateral proceedings.’” West v. Carpenter, 790 F.3d 693, 698 (6th Cir. 2015) (quoting
Martinez, 566 U.S. at 16). Finally, “[t]he ‘fundamental miscarriage of justice’ gateway is open to
a petitioner who submits new evidence showing that ‘a constitutional violation has probably
resulted in the conviction of one who is actually innocent.’” Williams v. Bagley, 380 F.3d 932,
973 (6th Cir. 2004) (quoting Schlup v. Delo, 513 U.S. 298, 327 (1995)). In his motion for a stay,
Ford claimed to have newly discovered evidence that the State overcharged him. But “‘actual
innocence’ means factual innocence, not mere legal insufficiency.” Bousley v. United States, 523
3 In his habeas petition, Ford also argued that the trial court erred in “condoning” trial counsel’s
actions “and/or for acting in concert with counsel.” Ford has forfeited this subclaim by failing to
argue it in his COA application. See Elzy, 205 F.3d at 886.

No. 19-5244
-9U.S. 614, 624 (1998). Reasonable jurists therefore could not debate the district court’s procedural
ruling as to either Ford’s third ground or his motion for a stay.
Accordingly, the COA application is DENIED. The IFP motions are DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

)

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 1 of 29

PagelD 2464

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION

WILLIAM FORD,
Petitioner,
v.

MIKE PARRIS,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

Case No. 2:16-cv-01077-JTF-dkv

ORDER TO MODIFY THE DOCKET, DENYING PETITION PURSUANT TO 28 U.S.C:
§ 2254, DENYING A CERTIFICATE OF APPEALABILITY, CERTIFYING THAT AN
APPEAL WOULD NOT BE TAKEN IN GOOD FAITH, AND DENYING LEAVE TO
PROCEED IN FORMA PAUPERIS ON APPEAL
Before the Court are the Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus by a
Person in State Custody (“§ 2254 Petition”) filed by Petitioner, William Ford, Tennessee
Department of Correction prisoner number 319577, who is currently incarcerated at the Morgan
County Correctional Complex (“MCCX”) in Wartburg, Tennessee (ECF No. 1), Respondent’s
Answer to the Federal Habeas Petition (“Answer”), filed by MCCX Warden Kevin Genovese
(ECF No. 14); and Ford’s Reply to Respondent’s Answer (“Reply”) (ECF No. 21).1 For the
reasons stated below, the Court DENIES the § 2254 Petition.

l

The Clerk is directed to substitute current MCCX Warden Mike Parris for Genovese as
respondent. See Fed. R. Civ. P. 25(d).

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 2 of 29

I.

PagelD 2465

BACKGROUND
A.

State Court Procedural History

On September 21,1999, a grand jury in Shelby County, Tennessee returned a single-count
indictment charging Ford with the first degree murder of Dilanthious Demond Drumwright.
(ECF'No7l3-l at PagelD 40-41.) The State sought the death penalty.
A jury trial commenced in the Shelby County Criminal Court on April 10, 2000. (Id. at
PagelD 47.) On April 13, 2000, the jury returned a guilty verdict. (Id. at PagelD 50.) At the
conclusion of the penalty phase hearing on April 13, 2000, the jury sentenced Ford to life
imprisonment without the possibility of parole. (Id.) Judgment was entered on April 13, 2000
and on May 15, 2000, when the trial judge denied the motion for a new trial. (Id. at PagelD 51.)
The Tennessee Court of Criminal Appeals (“TCCA”) affirmed.

State v. Ford, No.

W2000-01205-CCA-R3CD, 2002 WL. 1‘592746 (Tenn. Crim. App. July 12, 2002), appeal denied
(Term. Dec. 16, 2002).
On October 3, 2003, Ford filed a pro se Petition for Relief from Conviction or Sentence in
the Shelby County Criminal Court. (ECF_ No..13-17 at PagelD 1144-59.) The State filed its
response on or about October 20,2003. (Id. at PagelD 1187-88.) After counsel was appointed to
represent Ford (id. at PagelD 1193), an amended petition was filed on February 11, 2004 (id. at
PagelD 1160-64). The State responded on or about March 1, 2004. (Id. at PagelD 1189-90.)
An Amended and Supplemental Petition for Post-Conviction Relief was filed on November 4,
2009 by a different attorney who had been appointed to represent Ford. (Id. at PagelD 1165-74.)

2

2 The delay was due to the facts that the second attorney who was appointed withdrew due
to conflicts with Ford, the third appointed attorney needed time to familiarize himself with the
2

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 3 of 29

PagelD 2466

The State responded on June 17, 2010. {Id. at PagelD 1191-92.) A Supplement to Amended
Petition for Post-Conviction Relief was filed on December 16, 2013. {Id. at PagelD 1175-78.)
Hearings on the post-conviction petition were held on November 14 and 15, 2013, December 16,
2013, January 24, 2014, February 25, 2014, and February 26, 2014. (ECF Nos. 13-18, 13-19,
13-20,13-21,13-22.) The post-conviction court denied relief on September 29,2014. (ECF No.
13-17 at PagelD 1208-19.) The TCCA affirmed. Fordv. State, 2015 WL 6942508 (Term. Crim.
App. Nov. 10, 2015), appeal denied (Term. Feb. 18, 2016).
In its opinion on direct appeal, the TCCA summarized the evidence introduced at trial.
State v. Ford, 2002 WL 1592746, at *1-2. The victim, Drumwright, a high school student, was
walking home with a group of students on February 4, 1999 when two cars pulled up near them.
Ford exited one of the cars and got a weapon from someone in the other car. Ford fired multiple
shots, one of which hit the victim in the back, causing his death. The evidence was that Ford had
shouted “LMGK” and “VLK”, meaning “Lemoyne Garden Killer” and “Vice Lord Killer”,
immediately before he fired the weapon. Id. at *3.
B.

Ford’s § 2254 Petition, Case Number 2:16-cv-01077

On April 18, 2016, Ford filed his pro se § 2254 Petition in the Eastern Division of this
district. (ECF No. 1.) On December 12, 2016, Chief United States District Judge J. Daniel
Breen transferred the § 2254 Petition to this division, where the convicting court is located. (ECF
No. 7.) The matter was reassigned to the undersigned judge on December 12, 2016. (ECF No.
18.) The § 2254 Petition presents the following claims:

case, the assigned judge recused himself, and Ford had a serious medical issue. {Id. at PagelD
1194-95, 1198-1203.)
3

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 4 of 29

PagelD 2467

1.

“THE PETITIONER’S TRIAL COUNSEL WAS INEFFECTIVE FOR
FAILING TO PRESENT WITNESSES IN SUPPORT OF A
SELF-DEFENSE THEORY” (ECF No. 1 at 5);

2.

“THE COURT OF CRIMINAL APPEALS OPINION VIOLATED THE
PETITIONER’S FEDERAL DUE PROCESS RIGHTS BY FINDING
THAT COUNSEL WAS NOT INEFFECTIVE FOR FAILING TO
REQUEST THE PATTERN JURY INSTRUCTION ON BURDEN OF
PROOF” (id. at 6);

3.

“THE PETITIONER’S TRIAL COUNSEL WAS INEFFECTIVE FOR
FAILING TO MOTION THE COURT TO WITHDRAW FROM
REPRESENTING THE PETITIONER IN LIGHT OF HER OPEN
CONTEMPT FOR THE PETITIONER” (id. at 6; see also id. at 7-8);

4.

“THE PETITIONER’S POST-CONVICTION ATTORNEY WAS
INEFFECTIVE FOR FAILING TO PUT ON PROOF THAT THE
PETITIONER’S TRIAL ATTORNEY WAS INEFFECTIVE FOR NOT
RECUSING HER SELF FROM THE PETITIONER’S CASE” (id. at 8);
and

5.

POST-CONVICTION COUNSEL WAS INEFFECTIVE FOR FAILING
TO PROPERLY PRESENT CLAIMS THAT TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO PRESERVE FOR APPELLATE
REVIEW” (id. at 8; see also id at 8-9).

In an order issued on January 10, 2017, the Court ordered Genovese to file the state-court
record and a response to the § 2254 Petition. (ECFlNo™9.) On March 9, 2017, Genovese filed
the state-court record and his Answer. (ECF Nos. 13, 14.) On November 27, 2017, Ford filed a
motion asking the Court to set a date for him to reply to the Answer. (ECF No.. 19.) In an order
issued on December 1, 2017, the Court noted that the January 10, 2017 order had directed that any
reply be filed within twenty-eight days after service of the Answer, which, in this case, would have
made the reply due on April 10, 2017. (ECFLNOOIO.) Nonetheless, the Court granted the

4

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 5 of 29

PagelD 2468

motion and extended Ford’s time to reply until January 23, 2018. (Id. at 3.) The Clerk docketed
Ford’s Reply on January 25, 2018. (ECF No. 21.)3
On July 27, 2017, Ford filed a motion to hold this matter in abeyance on the ground that he
had unspecified newly discovered evidence that he had been overcharged. (ECF No. 16.) The
Court denied the motion on October 31,2017. (ECF No. 18.)
II.

ANALYSIS OF PETITIONER’S CLAIMS
A.

Trial Counsel’s Failure to Request a Jury Instruction (Claim 2)4

In Claim 2, Ford argues that his trial counsel rendered ineffective assistance by failing to
request the pattern jury instruction on burden of proof. (ECF No. 1 at 6.) That instruction
provides that “the state has the burden of proving the guilt[] of the defendant beyond a reasonable
doubt, and this burden never shirts [sic] but remains on the state throughout the trial of the case.
The defendant is not required to prove his innocence.” (ECF No. 13-27 at PagelD 2314 (quoting
Term. Pattern Jury Instructions, Crim., 2.02)). The trial judge failed to instruct the jury on burden
of proof.

The jury was, however, given the following instructions on the presumption of

innocence and reasonable doubt:
PRESUMPTION OF INNOCENCE
You enter upon this investigation with the presumption that the defendant is
not guilty of any crime and this presumption stands as a witness for him until it is
rebutted and overturned by competent and credible proof. It is, therefore,
incumbent upon the State, before you can convict the defendant, to establish to your
satisfaction, beyond a reasonable doubt, that the crime charged in the indictment
has been committed; that the same was committed within the County of Shelby and
State of Tennessee before the finding of this indictment and that the defendant at
3 Ford signed his Reply on January 22, 2018 (id. at 17), making it timely. Houston v.
Lack, 487 U.S. 266, 270-71 (1988).
4 In the interest of clarity, the Court will address Claim 2, which was exhausted in state
court, before Claim 1, which was not.
5

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 6 of 29

PagelD 2469

bar committed the crime in such manner that would make him guilty under the law
heretofore defined and explained to you.
REASONABLE DOUBT
Reasonable double is that doubt created by an investigation of all the proof
in the case and an inability, after such investigation, to let the mind rest easily upon
the certainty of guilt. Reasonable doubt does not mean a doubt that may arise from
possibility. Absolute certainty is not demanded by the law to convict of any
criminal charge, but moral certainty is required and this certainty is required as to
every element of proof needed to constitute the offense.
(ECF No. 13-9 at PagelD 842; see also ECF No. 13-23 at PagelD 1473-74 (same).)
Ford raised this issue during the post-conviction proceeding. (ECF No. 13-17 at PagelD
1170-72.) The post-conviction court denied relief on the merits. (Id. at PagelD 1214.) Ford
preserved this issue by raising it in his brief to the TCCA on the post-conviction appeal. (ECF
No. 13-27 at PagelD 2296, 2314-15.) The TCCA denied relief on the merits. Ford v. State,
2015 WL 6942508, at *6.
Ford’s claim that his attorney rendered ineffective assistance of counsel is controlled by the
standards stated in Strickland v. Washington, 466 U.S. 668 (1984). Those standards require a
showing that “counsel’s performance was deficient” and that “the deficient performance
prejudiced the defense.” Id. at 687. To establish deficient performance, a person challenging a
conviction “must show that counsel’s representation fell below an objective standard of
reasonableness.” Id. at 688. A court considering a claim of ineffective assistance must apply a
“strong presumption” that counsel’s representation was within the “wide range of reasonable
professional assistance.” Id. at 689. The challenger’s burden is to show “that counsel made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the
Sixth Amendment.” Id. at 687. “The question is whether an attorney’s representation amounted
6

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 7 of 29

PagelD 2470

to incompetence under ‘prevailing professional norms,’ not whether it deviated from best practices
or most common custom.” Harrington v. Richter, 562 U.S. 86, 105 (2011) (quoting Strickland,
466 U.S. at 690).
To demonstrate prejudice, a prisoner must establish “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. “A reasonable probability is a probability sufficient to undermine
confidence in the outcome.” Id. “It is not enough to show that the errors had some conceivable
effect on the outcome of the proceeding. Counsel’s errors must be so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable.” Richter, [562 U.S. at 104 (internal
quotation marks and citation omitted); see also id. at 111-12 (“In assessing prejudice under
Strickland, the question is not whether a court can be certain counsel’s performance had no effect
on the outcome or whether it is possible a reasonable doubt might have been established if counsel
acted differently. . . .

The likelihood of a different result must be substantial, not just

conceivable.”) (citations omitted); Wong v. Belmontes, 558 U.S. 15, 27 (2009) (per curiam) (“But
Strickland does not require the State to ‘rule out’ [a more favorable outcome] to prevail. Rather,
Strickland places the burden on the defendant, not the State, to show a ‘reasonable probability’ that
the result would have been different.”).
Where, as here, a state prisoner’s claim has been adjudicated on the merits in state court, a
federal court can issue a writ only if the adjudication:
(1)

resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or

(2)

resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.
7

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 8 of 29

PagelD 2471

28 U.S.C. § 2254(d)(l)-(2). The petitioner carries the burden of proof for this “difficult to meet”
and “highly deferential standard,” which “demands that state-court decisions be given the benefit
of the doubt.” Cullen v. Pinholster, 563 U.S. 170, .181' (2011) (internal quotation marks and
citations omitted). The deference to be accorded a state-court decision under Strickland is
magnified when reviewing an ineffective assistance claim under 28 U.S.C. § 2254(d):
Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult. The standards created by Strickland and
§ 2254(d) are both “highly deferential,” id., at 689; Lindh v. Murphy, 521 U.S. 320,
333, n. 7 (1997), and when the two apply in tandem, review is “doubly” so,
Knowles [v. Mirzayance], 556 U.S., at 123, 1129 S. CtJat 1420 [(2009)]. The
Strickland standard is a general one, so the range of reasonable applications is
substantial. 556 U.S., at 123, 129 S. CtJ at 1420. Federal habeas courts must
guard against the danger of equating unreasonableness under Strickland with
unreasonableness under § 2254(d). When § 2254(d) applies, the question is not
whether counsel’s actions were reasonable. The question is whether there is any
reasonable argument that counsel satisfied Strickland's deferential standard.
Richter, 562 U.S. at 105.
Ford cannot establish that the TCCA’s decision was contrary to Strickland. A state
court’s decision is “contrary” to federal law when it “arrives at a conclusion opposite to that
reached” by the Supreme Court on a question of law or “decides a case differently than” the
Supreme Court has “on a set of materially indistinguishable facts.” Williams v. Taylor, 529JUS?
362, 4i2-13 (2000). The TCCA cited the correct legal rule from Strickland and from Tennessee
cases applying Strickland. Ford v. State, 2015 WL 6942508, at *5. This is “a run-of-the-mill
state-court decision applying the correct legal rule ... to the facts of a prisoner’s case” and,
therefore, it does not “fit comfortably within § 2254(d)(1)’s ‘contrary to’ clause.” Williams, 529
U.S. at 406.

8

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 9 of 29

PagelD 2472

Ford also has failed to demonstrate that the TCCA’s decision was an unreasonable
application of clearly established federal law or that it was based on an unreasonable factual
finding. An “unreasonable application” of federal law occurs when the state court “identifies the
correct governing legal principle from” the Supreme Court’s decisions “but unreasonably applies
that principle to the facts of the prisoner’s case.” Id. at 413. The state court’s application of
federal law must be “objectively unreasonable” for the writ to issue. Id. at 409. It is not
sufficient that the habeas court, in its independent judgment, determines that the state court
decision applied clearly established federal law erroneously or incorrectly. Renico v. Lett, [559
U.S. 766, 773 (2010) (citing Williams, [529 U.S. at 4fl).
As a condition for obtaining habeas corpus from a federal court, a state prisoner
must show that the state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.
Richter, 562 U.S. at 103.
Likewise, “when a federal habeas petitioner challenges the factual basis for a prior
state-court decision rejecting a claim, . . . [t]he prisoner bears the burden of rebutting the state
court’s factual findings ‘by clear and convincing evidence.’” Burt v. Titlow, 571 U.S. 12, 18
A state court factual determination is not

(2013) (quoting 28 U.S.C. '§ 2254(e)(1)).

“unreasonable” merely because the federal habeas court would have reached a different
conclusion. Wood v. Allen, 1558 U.S. 290, 301 (2010); see also Rice v. Collins, 1546 U.S. 333,
341-42 (2006) (“Reasonable minds reviewing the record might disagree” about the factual finding
in question, “but on habeas review that does not suffice to supersede the trial court’s . . .
determination.”).
The TCCA explained why it denied relief on this claim:
9

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 10 of 29

PagelD 2473

[Ford] also argues that trial counsel was ineffective for failing to request a
pattern jury instruction on the burden of proof. This Court has previously held that
trial counsel is not ineffective for failing to request a pattern jury instruction so long
as the “trial court ‘sufficiently described the degree of doubt necessary for acquittal
and the degree of proof necessary for conviction.”’ John Michael Bane, 2011 WL
2937350, at *38 (quoting Pettyjohn v. State, 885 S.W.2d 364, 365 (Tenn. Crim.
App. 1994)). The post-conviction court found that the jury instructions given by
the trial court were nearly identical to those given in John Michael Bane.
Therefore, trial counsel was not ineffective for failing to request the specific pattern
jury instruction on the burden of proof. [Ford] has not proven by clear and
convincing evidence that he received the ineffective assistance of counsel and is
not entitled to relief.
Ford v. State, 2015 WL 6942508, at *6 (footnote omitted).
It is difficult to evaluate whether the TCCA’s decision was an unreasonable application of
Strickland or was based on an unreasonable factual finding because the TCCA relied heavily on its
decision in Bane v. State, No. W2009-01653-CCA-R3-PD, 201 i WL 2937350, at *37-38 (Tenn.
Crim. App. July 21, 2011), appeal denied (Tenn. Mar. 7, 2012), which upheld a virtually identical
instruction.

The TCCA’s opinion in Bane was issued eleven years after Ford’s trial and,

therefore, his attorney could not have relied on that decision in evaluating the proposed jury
instructions.
Even if the Court were to evaluate Claim 2 de novo, Ford has not shown deficient
performance or prejudice. The strongest argument that trial counsels’ performance was deficient
is that use of the omitted instruction was mandatory at the time of Ford’s trial. {See ECF No.
'13-27 at PagelD 2314.) To her credit, Diane Thackery, Ford’s lead trial counsel, testified at the
post-conviction hearing that she did not make a strategic decision not to object to the omission of
the instruction. (ECF No. 13-21 at PagelD 1425-26.)
There was no clearly established legal duty for an attorney to ensure that the trial judge
gave each of the required pattern jury instructions. Although use of the pattern jury instruction
10

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 11 of 29

PagelD 2474

may have been mandatory in Tennessee, the trial judge was required to give the necessary
instruction even in the absence of a request by defense counsel. Bishop v. State, 287 S.W.2d 49,
50 (Term. 1956). The law at the time of Ford’s trial was clear that “[t]he beyond a reasonable
doubt standard is a requirement of due process, but the Constitution neither prohibits trial courts
from defining reasonable doubt nor requires them to do so as a matter of course.” Victor v.
Nebraska, 511 U.S. 1, 5 (1994). Instead, “so long as the court instructs the jury on the necessity
that the defendant’s guilt be proved beyond a reasonable doubt, the Constitution does not require
that any particular form of words be used in advising the jury of the government's burden of
proof.” Id. (citation omitted). “Rather, taken as a whole, the instructions must correctly convey
the concept of reasonable doubt to the jury.” Id. (internal quotation marks and brackets omitted).
In 1994, the TCCA, applying Victor, upheld an instruction that was substantially similar—albeit
not completely identical—to the instruction given in Ford’s case. Pettyjohn v. State, 885 S.W.2d
364, 365-66 (Tenn. Crim. App. 1994), appeal denied (Tenn. Sept. 12, 1994). In so holding, the
TCCA explained that the challenged instruction “sufficiently described the degree of doubt
necessary for acquittal and the degree of proof necessary for conviction,” id. at 365, and
“sufficiently guided the jury to look to the evidence in the case and, in considering the evidence,
sufficiently cast the standard for the degree of proof necessary to convict in terms of the level of
certainty humanly attainable with respect to human affairs,” id. at 366.
Even if trial counsel’s performance arguably was deficient in failing to request that the trial
judge give the pattern instruction on the burden of proof, Ford cannot establish prejudice, Ford
shot the unarmed victim in the back in broad daylight in front of numerous witnesses.

In

evaluating the sufficiency of the evidence on direct appeal, the TCCA concluded that, “[rjesolving
11

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 12 of 29

PagelD 2475

all conflicts in favor of the prosecution, we find ample support for the conclusion that [Ford]
announced himself as a killer; went to another car, obtained a weapon therefrom; and then fired
multiple times killing the victim with one of these shots. These facts support a finding of intent to
kill.” State v. Ford, 2002 WL 1592746, at *4. Ford makes no argument that, if only the jury had
been instructed on the burden of proof, there is a reasonable probability that the outcome of his
trial would have been different. Ford also overlooks the fact that, had trial counsel made a timely
objection to the failure to include the required instruction on burden of proof, the trial judge would
almost certainly have given the instruction.5
Because Ford cannot establish deficient performance or prejudice even under the more
lenient standard of de novo review, Claim 2 is without merit and is DISMISSED.
B.

Trial Counsels’ Failure to Present Witnesses to Support a Theory of
Self-Defense (Claim I)

In Claim 1, Ford claims that his attorneys rendered ineffective assistance by failing to
present witnesses who would testify that the killing was in self-defense. (ECF No. 1 at 5.)
Specifically, Ford complains that his attorney failed to call Lori Smith, who he claims would have
testified that four other people were at the scene and firing weapons (“sub-claim (i)”). Ford
further complains that trial counsel told the jury in his opening statement that he intended to call
Lori Smith but did not do so (“sub-claim (ii)”) and that he failed to call Ford, who had no prior

5 Ford did not argue that his appellate counsel rendered ineffective assistance in failing to
raise this issue. Ford was represented by a new lawyer on direct appeal. Had the issue been
raised on direct appeal, Ford’s conviction might have been reversed and the case remanded for a
new trial. Bishop, 287 S.W.2d at 50. And in evaluating a claim that appellate counsel was
ineffective, prejudice is shown where there is a reasonable probability that the outcome of the
appeal would have been different. Smith v. Robbins, 528 U.S. 259, 285-86 (2000). Ford also
does not argue that trial counsel was ineffective in failing to include the absence of an instruction
on burden of proof in the motion for a new trial.
12

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 13 of 29

PagelD 2476

felony convictions, to testify on his own behalf (“sub-claim (iii)”). (Id.) The Warden’s Answer
addresses only sub-claim (i). The Court will first address sub-claim (i) and then turn to the other
two sub-claims.
1.

Sub-claim (i) Has Been Procedurally Defaulted

In his Answer, Warden Genovese argues that, although Ford exhausted a claim during the
post-conviction proceeding that trial counsel was ineffective in failing to call witnesses to support
a self-defense claim, the claim in the § 2254 Petition is different than the claim that was exhausted
in state court. (ECFNo. 14 at 12-13.) The Court agrees.
A federal court may not grant a writ of habeas corpus on behalf of a state prisoner unless,
with certain exceptions, the prisoner has exhausted available state remedies by presenting the same
claim sought to be redressed in a federal habeas court to the state courts pursuant to 28JJ.S,C, §§’
2254(b) and (c). Pinholster, 5'63U.S."at 181'. The petitioner must “fairly present” each claim to
all levels of state court review, up to and including the state’s highest court on discretionary
review, Baldwin v. Reese, 541 U S. 'll,7.9 (2004), except where the state has explicitly disavowed
state supreme court review as an available state remedy, O'Sullivan v. Boerckel, !526 U.S, 838,1
1847-48: (1999). To avoid procedural default, a habeas petitioner in Tennessee must present his
federal claims to the TCCA. Covington v. Mills, 1110 F. App’x 663, 665 (6th Cir. 2004).
To fairly present a federal claim, a prisoner must present the same facts and legal theory to
the state courts as is raised in his federal habeas petition. See Anderson v. Harless, ;459 U.S. 4,6-7
(1982); Picard v. Connor, 404 US.'270,276-77 (1971); Hodges v. Colson, 727 F.3d517, 529 (6th
Cir. 2013) (“The exhaustion doctrine requires the petitioner to present the same claim under the
same theory to the state courts before raising it on federal habeas review.”) (internal quotation
13

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 14 of 29

PagelD 2477

marks and alteration omitted). In evaluating whether a prisoner has “fairly presented” a claim to a
state appellate court, the controlling document is the inmate’s brief. See Baldwin, 541 U.STat 32
(“[OJrdinarily a state prisoner does not ‘fairly present’ a claim to a state court if that court must
read beyond a petition or a brief (or a similar document) that does not alert it to the presence of a
federal claim in order to find material, such as a lower court opinion in the case, that does so.”).
In his brief to the TCCA on the post-conviction appeal, Ford argued that his attorney
rendered ineffective assistance in failing to present the testimony of Venus Jones, Demond
Gardner, Randy Bennett, Lonnie Maclin, and Eric Lewis to support his claim of self-defense.
(ECFNo. 13-27 at PagelD 2307-12.) The TCCA denied relief on the merits. Ford v. State, >2015
iWL 6942508, at *5-6. In his brief to the TCCA, Ford made no argument that his attorney should
have called Lori Smith. Therefore, he has failed to exhaust sub-claim (i) in state court. Because
there is no longer any means by which Ford can exhaust sub-claim (i), it ordinarily would be
barred by procedural default.
2.

Ford is Not Actually Innocent

Ford appears to argue that, even if this and other claims have been procedurally defaulted,
the Court can review the merits to prevent a manifest injustice. (ECF No._l_at 9_-10.) A showing
of manifest injustice requires that a prisoner have new evidence of his actual innocence sufficient
to overcome his procedural default.

See Murray v. Carrier, ’477 U.S. 478' 493-96 (1986)

(rejecting manifest injustice standard without proof of cause and prejudice). Ford’s claim of
actual innocence is “not itself a constitutional claim, but instead a gateway through which a habeas
petitioner must pass to have his otherwise barred constitutional claim[s] considered on the merits.”
Schlup v. Delo, 513 ,U.S. 298, 315 (1995) (internal quotation marks omitted). “[Pjrisoners
14

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 15 of 29

PagelD 2478

asserting innocence as a gateway to defaulted claims must establish that, in light of new evidence,
it is more likely than not that no reasonable juror would have found petitioner guilty beyond a
reasonable doubt.” House v. Bell, 547_U.Sr’5I8, 536-37 (2006) (internal quotation marks
omitted); see also Schlup, '513 U.S. at 316 (“Without any new evidence of innocence, even the
existence of a concededly meritorious constitutional violation is not in itself sufficient to establish
a miscarriage of justice that would allow a habeas court to reach the merits of a barred claim.
However, if a petitioner . . . presents evidence of innocence so strong that a court cannot have
confidence in the outcome of the trial unless the court is also satisfied that the trial was free of
nonharmless constitutional error, the petitioner should be allowed to pass through the gateway and
argue the merits of his underlying constitutional claims.”).
In Schlup, the Supreme Court emphasized that “a substantial claim that constitutional error
has caused the conviction of an innocent person is extremely rare.” 513 U.S. at 324. “To be
credible, such a claim requires petitioner to support his allegations of constitutional error with new
reliable evidence—whether it be exculpatory scientific evidence, trustworthy eyewitness
accounts, or critical physical evidence—that was not presented at trial.” Id. Nonetheless, “the
habeas court’s analysis is not limited to such evidence.” House, 547 U.S. at 537- The Court
“must test the probative force of the newly presented evidence in connection with the evidence of
guilt adduced at trial.” Schlup, 513 U.S. at 332.
Here, the evidence at trial was that Ford was the only person who was armed and that he
fired ten rounds at a group of high school students and younger children who were walking away
from him. At the post-conviction hearing, Ford testified on his own behalf and his attorneys
called five witnesses who testified to conflict between Ford and members of a rival gang during the
15

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 16 of 29

PagelD 2479

days leading up to the murder and at the scene of the murder. See Ford v. State, 2015 _WL
'6942508, at *2-3. The TCCA held that trial counsel did not render ineffective assistance by
failing to call these witnesses, reasoning as follows:
[Ford] claims that counsel was ineffective for failing to call various
witnesses to testify in support of his self-defense theory. Counsel testified that the
defense team attempted to contact the witnesses identified by [Ford] but were
unsuccessful. Mr. Maclin’s testimony indicated that he would not have
cooperated with the defense team had they sought to interview him, and he
equivocated on whether he would have testified truthfully had he been called as a
witness. Ms. Jones and Mr. Bennett did not witness the shooting and would have
provided little support to a self-defense theory. Mr. Gardner testified for the State
at trial, and [Ford] has not indicated what counsel could have done to elicit more
favorable testimony from him at trial. While Mr. Lewis was present at trial and
available to testify, counsel’s decision not to call him was a tactical decision
entitled to deference. Vaughn v. State, 202 S.W.3d 106,.123 (Term. 2006).
Additionally, [Ford] failed to show that he was prejudiced by counsel’s
failure to call these witnesses. [Ford] cites State v. Ruane, 912.S.W.2d 766 (Term.
Crim. App. 1995), for the proposition that proof of prior violent acts by the victim
can corroborate a claim of self-defense. However, there was no evidence
presented at the post-conviction hearing of prior violent acts by the victim, but only
that [Ford] had gotten into fights and been threatened by other members of the Vice
Lords. While some of the witnesses at the post-conviction hearing testified that
the Vice Lords were making threatening gestures and were advancing on [Ford’s]
group, only Mr. Maclin testified that he saw a gun. Additionally, other evidence at
trial indicated that the victim’s group was actually walking away before the
shooting occurred. See William J. Ford, 2002.WL.1592746, at *4. [Ford’s]
testimony that he fired shots “in the air” is inconsistent with both the proof that the
victim was shot in the back and the self-defense statute. See T.C.A. §
39-11-611(a); State v. Stanley Blackwood, No. W1999-01221-CCA-R3-CD, 2000
WL'l672343, at *9 (Term. Crim. App. Nov. 2, 2000) (holding in a case in which
“the defendant claimed that he only fired his own gun in the air after he was
attacked,” that “notwithstanding the improbability of the defendant’s testimony, he
was not entitled to a self-defense instruction, because even according to his own
testimony, he did not intentionally fire at anyone”), perm. app. denied (Tenn. May
21, 2001). [Ford] has failed to prove either deficiency or prejudice and is not
entitled to relief on this basis.
Id. at *5-6.

16

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 17 of 29

PagelD 2480

Ford has not established that, if only the jury had heard the testimony of his post-conviction
witnesses and that of Lori Smith, no reasonable jury would have convicted him. Ford has offered
no proof of what Lori Smith would have testified to. Even if it were assumed that Lori Smith
testified that members of the Vice Lords were present at the scene and were armed, that testimony
would be cumulative to that of Lonnie Maclin, a member of the Vice Lords who testified at the
post-conviction hearing. Any testimony that other gang members were firing their weapons is
belied by the fact that the only ballistic evidence recovered from the scene were the ten rounds that
witnesses testified came from Ford’s weapon.
Therefore, Ford has not come forward with sufficient evidence of his actual innocence to
overcome his procedural default of Claim 1.
3.

Ford’s Procedural Default is Not Excused by the Ineffective Assistance
of Post-Conviction Counsel

In his Reply, Ford argues that his procedural default should be excused by virtue of the
Supreme Court’s decisions in Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569
U.S. 413 (2013). (ECF No. 21 at 1-11.) As a general rule, “[tjhere is no constitutional right to an
attorney in state post-conviction proceedings. Consequently, a petitioner cannot claim
constitutionally ineffective assistance of counsel in such proceedings.” Coleman v. Thompson,
661 U.S. 722, 752 (1991) (citations omitted). Until the decision in Martinez, a habeas petitioner
could not obtain relief when a claim was barred by procedural default due to the ineffective
assistance of post-conviction counsel.
In 2012, the Supreme Court decided Martinez v. Ryan, 566 U.S. at 17, which recognized a
narrow exception to the rule stated in Coleman “[wjhere, under state law, claims of ineffective
assistance of trial counsel must be raised in an initial-review collateral proceeding ....” In such
17

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 18 of 29

PagelD 2481

cases, “a procedural default will not bar a federal habeas court from hearing a substantial claim of
ineffective assistance at trial if, in the initial-review collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.” Id. Therefore, where post-conviction counsel was
ineffective in failing to raise an issue regarding the effectiveness of trial counsel, procedural
default may not apply.
Martinez addressed an Arizona law that did not permit ineffective assistance claims to be
raised on direct appeal. In its subsequent decision in Trevino, 569 U.S. at 429, the Supreme Court
extended its holding in Martinez to states in which a “state procedural framework, by reason of its
design and operation, makes it highly unlikely in a typical case that a defendant will have a
meaningful opportunity to raise a claim of ineffective assistance of trial counsel on direct appeal
....” The requirements that must be satisfied to excuse a procedural default under Martinez are:
(1) the claim of “ineffective assistance of trial counsel” was a “substantial” claim;
(2) the “cause” consisted of there being “no counsel” or only “ineffective” counsel
during the state collateral review proceeding; (3) the state collateral review
proceeding was the “initial” review proceeding in respect to the
“ineffective-assistance-of-trial-counsel claim”; and (4) state law requires that an
“ineffective assistance of trial counsel claim be raised in an initial-review collateral
proceeding.”
Id. at 423 (brackets and ellipses omitted). The decisions in Martinez and Trevino apply to
Tennessee prisoners. Sutton v. Carpenter, 745 F.3d 787 (6th Cir. 2014).
The Warden has argued that Martinez is inapplicable because sub-claim (i) is not
“substantial.” (ECF No. 14 at 13-16.) “To be ‘substantial’ under Martinez, a claim must have
‘some merit’ under the standard for ineffective assistance of counsel stated in Strickland v.
Washington, 466 U.S. 668 (1984).” Henderson v. Carpenter, 21 F. Supp. 3d 927, 935 (W.D.

18

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 19 of 29

PagelD 2482

Term. 2014) (citing Martinez, 566 U S. at 14) (parallel citations omitted), appeal docketed, No.
14-5911 (6th Cir. July 25, 2014).
Here, Ford has not established that his attorney’s failure to call Smith constituted deficient
performance or that he suffered prejudice.

As previously noted, see supra p. 17, Smith’s

testimony would be, at best, cumulative of that of Lonnie Maclin, who testified at the
post-conviction hearing, and would be contradicted by the eyewitnesses and the physical evidence.
Moreover, it is doubtful that Ford believed, at or before the time of his trial, that Smith’s testimony
would be favorable to him. Demond Gardner testified at trial that Ford had written letters to him
instructing him to threaten Smith so that she would not appear at his trial. (ECF_.No. J3-5.at
PagelD 402-05, 409-10.) Ford has not attempted to reconcile his pretrial attempts to scare Smith
to prevent her from testifying with his recent position that his attorney rendered ineffective
assistance by failing to call Smith as a witness at trial.
For the foregoing reasons, sub-claim (i) is barred by procedural default and Ford is unable
to overcome that default.
4.

The Remaining Sub-Claims are Barred by Procedural Default and are
Meritless

As previously noted, see supra pp. 12-13, the State’s Answer failed to address sub-claim
(ii), trial counsel’s promise to the jury that Lori Smith would testify, and sub-claim (iii), the failure
to call Ford as a witness at trial. Neither of these sub-claims was properly exhausted in state court
and, therefore, ordinarily would be barred by procedural default.6 Federal courts are authorized

6 On direct appeal, Ford argued that the prosecutor’s references to Smith’s failure to testify
in closing arguments constituted misconduct. (ECF No. 13-12 at PagelD 1012, 1030-31.) As
previously noted, a claim is properly exhausted only if the same facts and legal theory were
presented to the federal and state courts. See supra pp. 13-14. That Ford has exhausted a
19

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 20 of 29

Page!D 2483

to raise a procedural default sua sponte. Clinkscale v. Carter, 375 F.3d430,437 (6th Cir. 2004);
see also Mason v. Brunsman, 483 F. App’x" 122, 129 (6th Cir. 2012) (raising procedural default
sua sponte on challenge to jury instruction that was presented to state courts solely as a state-law
issue). Where a court proposes to decide an issue on a ground that has not been raised, it is
appropriate to give the parties a chance to respond. See Trest v. Cain, §22 U.S. 87, 92 (1997); see
also Day v. McDonough, 547 U.S. 198, 209-10 (2006) (authorizing district courts to raise statute
of limitations sua sponte but requiring that parties be given opportunity to be heard).
It is unnecessary to delay the resolution of this matter. Under 28 U.S.C. §.2254(b)(2),
“[a]n application for a writ of habeas corpus may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies available in the courts of the state.” Because no
state court has addressed the merits of sub-claims (ii) and (iii), they are reviewed de novo. Dando
v. Yukins, 46T~R3d 791, 796 (6th Cir. 2006); Clinkscale, 375 F.3d at 436; Kircher v. Scutt, No.
12-14477, 2014 WL 354648, at *7 n.2 (E.D. Mich. Jan. 31, 2014).
With respect to sub-claim (ii), trial counsel’s promise to call Lori Smith, the record is silent
as to why counsel mentioned Smith in the defense’s opening statement yet failed to call her.
Assuming that that remark constituted deficient performance, Ford has not established prejudice.
In evaluating Ford’s prosecutorial misconduct claim arising from defense counsel’s promise, the
TCCA concluded that the reference to Smith’s anticipated testimony was harmless in light of the
strength of the evidence presented at trial. State v. Ford, t2002 WL 1592746, at *12. Given that
holding, Ford cannot show that, if only his attorney had not promised to call Smith, there is a

prosecutorial misconduct claim does not mean that he has exhausted an ineffective assistance
claim arising from the same facts.
20

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 21 of 29

reasonable probability that the outcome of the trial would have been different.

PagelD 2484

Therefore,

sub-claim (ii) is meritless.
As for sub-claim (iii), the failure to call Ford to testify at trial, Ford cannot show either
deficient performance or prejudice. During a voir dire examination at trial, Ford testified that he
understood that he had the right to testify and that he made the decision not to testify. (ECF No.
13-6 at PagelD 575-78.) Ford has not established that his attorneys’ recommendation that he not
testify constituted deficient performance. “Strategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually unchallengeable . . . .”
iU.S.

at 690

Strickland, 466

Here, counsel was in a position to evaluate how Ford’s demeanor would have come

across to the jury and how he was likely to handle cross examination. The risks of subjecting
Ford to cross-examination were particularly great in this case, where Ford would be questioned
about his attempts to intimidate witnesses and to get his associates to testify in accordance with
scripts that he had prepared. Because Ford did not testify, his statement to police in which he
falsely claimed that he was not present and did not shoot Drumwright was not admitted. (See
ECF No. 13-20 at PagelD 1375-76, 1388; see also ECF No. 13-6 at PagelD 578.) Given Ford’s
reaction to being cross-examined during the sentencing phase of his trial, which included refusing
to answer questions (see ECF No. 13-7 at PagelD 727, 729, 731-32), trial counsel’s
recommendation that Ford not testify appears to be a reasonable strategy. Ford also has not
established that, if only he had testified at trial, there is a reasonable probability that the outcome
would have been different. Notably, the TCCA found that Ford’s testimony that he fired his
weapon in the air and did not intentionally shoot Drumwright would have precluded a self-defense

21

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 22 of 29

PagelD 2485

instruction. Ford v. State, 2015 WL 6942508, at *6. Therefore, sub-claim (iii) is also without
merit.
For all the foregoing reasons, Claim 1 is DISMISSED.
C.

Trial Counsel’s Failure to Recuse Herself (Claim 3)

In Claim 3, Ford argues that his trial counsel rendered ineffective assistance by failing to
seek to recuse herself because of the openly contemptuous way in which she addressed Ford.
(ECF No. 1 at 6.) Ford presumably means that his attorney should have withdrawn from
representing him. See Tenn. Sup. Ct. R. 8, Rules of Professional Conduct 1.16. According to
Ford, Thackery “was ineffective for continuing to pretend to have [Ford’s] best interest at heart
when she knew that she did not.”

(ECF No. 1 at 7.)

As support, Ford testified at the

post-conviction hearing that Thackery told him that she was going to have him electrocuted
because he was acting like a “little dick.” (Id.) Ford asserts that “his trial attorney was
ineffective and the Post Judge was in error for condoning the blatant acts of Ms. Thackery, and/or
for acting in concert with counsel, which denied the Petitioner his due process and right to a fair
trial.” (Id. at 5.)
As a preliminary matter, it is unclear exactly what Ford wanted his attorneys to do.
Because Ford was found to be indigent, the Public Defender’s Office was appointed to represent
him. (ECF No. 13-1 at PagelD 42.) Lawyers who are appointed can withdraw only by leave of
court upon a showing of good cause.

Tenn. Code Ann. § 40-14-205(a).

Here, Thackery

arranged to have Ford present his complaints about her to the trial judge, who determined that no
good cause existed to replace her. On the first day of the trial, Ford asked the trial judge for a
continuance because his attorneys had not subpoenaed the witnesses he wanted. The trial judge
22

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 23 of 29

Page ID 2486

assured Ford that subpoenas would be issued and the witnesses would testify if they could be
found. (ECF No. 13-4 at PagelD 149-55.) Ford also said that he had a conflict with Thackery
because of “the words that she say toward” him, including “[t]hat I’m a stupid little kid that either
going to get life or the death penalty[.]” (Id. at PagelD 155.) On another occasion, Thackery told
Ford that he was “acting like a little dick” and was “going to get electrocuted” or “going to get
executed.” (Id. at PagelD 156.)

The trial judge told Ford that Thackery “has a right to talk to

[him] about what she thinks [the] verdict might be and what she thinks [he] should do” but that he
was not required to follow her advice. (Id. at PagelD 156-57.) The trial judge explained that
attorneys sometimes speak to their clients using very blunt language to ensure that the clients
understand the reality of their situations. (Id. at PagelD 157-59.) The trial judge also noted that
sometimes, when a defendant is sentenced to death or to life without parole, he will complain that
his attorney led him to believe that he was likely to prevail at trial. (Id. at PagelD 158-59.) The
trial judge ruled that he would not remove Thackery from the case because she had hurt Ford’s
feelings. (Id. at PagelD 159; see also id. at PagelD 162-63 (noting that Ford had “two excellent
lawyers” who specialized in death penalty cases).)
Before the trial judge heard argument on the motion for a new trial, Ford renewed his
request that Thackery be allowed to withdraw because of language she had used criticizing his
conduct at trial. (ECF No. 13-11 at PagelD 976.) The trial judge denied the motion, telling Ford
that his behavior during the guilt phase of the trial, where he was eventually removed from the
courtroom because of repeated outbursts in front of the jury, was inappropriate and
counterproductive. (Id. at PagelD 976-77.)

23

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 24 of 29

PagelD 2487

In his Answer, the Warden argues that Claim 3 was not properly exhausted in state court
and is barred by procedural default.

(ECF No. ~14 at 21.)

The Court agrees,

In his

post-conviction petition, Ford argued that his attorney rendered ineffective assistance by
repeatedly calling Ford by slang names that were intended to get him not to assist his attorney.
(ECF No’T3-17 at PagelD 1155.) The post-conviction court denied relief on the merits, holding
that, although trial counsel admitted calling Ford a “little dick,” counsel was able to work with
Ford at trial. (Id. at PagelD 1218.) Ford failed to raise the issue in his brief to the TCCA on the
post-conviction appeal (see ECF No. 13-27 at PagelD 2296) and, therefore, even if this claim were
deemed to be the same as Claim 3, it was not properly exhausted in state court. See supra pp.
13-14. Because there is no longer any means of exhausting Claim 3, it is barred by procedural
default.
In his Reply, Ford cites Martinez and Trevino for the proposition that his procedural default
was due to the ineffective assistance of post-conviction counsel.

(ECF No. 21 at 13-15.)

Although he does not directly address the failure to include the issue in the post-conviction appeal,
Ford argues that his post-conviction counsel was ineffective by failing to present unspecified
evidence in support of Claim 3. (ECF No. 22 at 14-15.) The Sixth Circuit Court of Appeals has
rejected the view that Martinez applies to claims that were raised, but not properly litigated, by
post-conviction counsel.

The Court of Appeals reasoned that Martinez applies only to

procedurally defaulted claims and that claims that were not properly presented have not been
defaulted. West v. Carpenter, (790 F.3d 693, 6999 (6th Cir. 2015), cert, denied, 136 S. Ct. 1456
(2017); Dixon v. Houk, ini F.3d 1003. 1012 & n.2 (6th Cir. 2013); Moore v. Mitchell, i708 F.3d
17607784=85 (6th Cir. 2013). In addition, Martinez does not apply to claims that were presented in
24

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 25 of 29

PagelD 2488

a post-conviction petition but not on appeal. Middlebrooks v. Carpenter, 843 F.3d 1127, 1136
(6th Cir. 2016), cert, denied, 138 S. Ct. 503 (2017); West, 790 F.3d at 698-99; see also Martinez,
566 U.S. at 11 (“While counsel’s errors in [other levels of post-conviction] proceedings preclude
any further review of the prisoner’s claim, the claim will have been addressed by one court,
whether it be the trial court, the appellate court on direct review, or the trial court in an
initial-review collateral proceeding.”).
Finally, Ford has not established that Claim 3 is “substantial.” He cites no Supreme Court
decision holding that an attorney who speaks harshly to her client has a duty to withdraw.
Thackery raised the issue with the trial judge, who concluded that there was not good cause to
allow her to withdraw. Ford has not explained what more Thackery should have done to persuade
the trial judge to rule differently. Ford also has not explained how Thackery’s language affected
the way she conducted his defense. Therefore, he has not established that there is a reasonable
probability that, if only Thackery had been removed and new counsel appointed, the outcome of
his trial would have been different.
For the foregoing reasons, Ford is unable to overcome his procedural default. Claim 3 is
without merit and is DISMISSED.
D.

Post-Conviction Counsel’s Failure Properly to Present Claim 3 (Claim 4)

In Claim 4, Ford argues that his post-conviction counsel rendered ineffective assistance by
failing to present proof that trial counsel was ineffective for not recusing herself from Ford’s case.
(ECF No. 1 at 8.) Claim 4 is not cognizable in a federal habeas petition. The law is clear that
“[t]he ineffectiveness or incompetence of counsel during Federal or State collateral
post-conviction proceedings shall not be a ground for relief in a proceeding arising under section
25

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 26 of 29

PagelD 2489

2254.” 28 U.S.C. § 2254(i). Therefore, Ford is not entitled to habeas relief on the ground that
his post-conviction counsel was ineffective. Claim 4 also does not excuse Ford’s procedural
default of Claim 3 for the reasons previously discussed. See supra pp. 24-25.
Claim 4 is DISMISSED because it is not cognizable in a § 2254 Petition.
E.

Post-Conviction Counsel’s Failure to Show that Trial Counsel was Ineffective
in Failing to Preserve Issues for Direct Appeal (Claim 5)

In Claim 5, Ford argues that his post-conviction counsel was ineffective in failing to
properly present claims that trial counsel was ineffective for failing to preserve issues for appellate
review. (ECF No. 1 at 8-9.) The issues Ford contends his trial counsel should have preserved
(presumably by raising them in the motion for a new trial) are as follows: (i) the evidence is
insufficient to sustain a conviction; (ii) the verdict is contrary to the law and evidence; (iii) the trial
court erred in overruling the motion to suppress Ford’s oral statements; (iv) the trial court erred in
not granting a mistrial after Ford’s second and third outbursts, leaving a possibly tainted jury
unable to be fair and impartial; (v) the trial court erred in not granting the defense motion in limine
regarding the letters admitted through Demond Gardner; (vi) the trial court erred by verbally
summarizing its charges to the jury prior to closing arguments; (vii) the trial court erred by
partially instructing the jury on how they would reach a verdict during the examination of Pat
Darden during the penalty phase; and (viii) the trial court erred in overruling the defense objection
to the court further charging the jury once deliberations had begun and after the jury raised the
second of two questions. (Id.)
To the extent that Claim 5 presents a standalone claim of ineffective assistance of
post-conviction counsel, it is not cognizable in a § 2254 petition for the reasons previously stated.
See supra pp. 25-26.
26

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 27 of 29

PagelD 2490

To the extent Ford relies on the claimed ineffectiveness of post-conviction counsel to
excuse any procedural defaults of the substantive sub-claims, he is not entitled to relief. Ford
challenged the sufficiency of the evidence on direct appeal {see ECF No.. 13-12 at PagelD 1012,
1018-20) and, therefore, sub-claims (i) and (ii) have not been procedurally defaulted. Sub-claim
(iv), the failure to grant a mistrial after excluding Ford from the courtroom, was also raised on
direct appeal and has not been procedurally defaulted. {Id. at PagelD 1012, 1021-27.) Ford also
challenged the trial court’s denial of his motion in limine addressing the admissibility of the letters
he wrote to Demond Gardner. {Id. at PagelD 1012, 1028-29.) Therefore, sub-claim (v) has not
been defaulted.
As for the remaining sub-claims, Ford has not demonstrated that any are “substantial.”
Rule 2(c)(2) of the Rules Governing Section 2254 Cases in the United States District Courts (“§
2254 Rules”) requires habeas petitioners to set forth “the facts supporting each ground” for relief.
Notice pleading is not permitted in habeas litigation. Mayle v. Felix, 545„U!S.-644, 655-56
(2005); Blackledge v. Allison, 43LU.S. 63, 75-76 (1977); Short v. United States, 504 F.2d.63,.65
(6th Cir. 1974); Robertson v. Turner, Case No. 15-cv-296, 2017 WL 4296187, at *2 (N.D. Ohio
Sept. 28, 2017). Ford has not set forth the facts supporting each sub-claim and has not argued
that, if only Thackery had presented these issues in the motion for a new trial, there is a reasonable
probability that the motion would have been granted or he would have prevailed on appeal.
Claim 5 is without merit and is DISMISSED.

27

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 28 of 29

PagelD 2491

Because every claim asserted by Petitioner is without merit, the Court DENIES the § 2254
Petition. The § 2254 Petition is DISMISSED WITH PREJUDICE. Judgment shall be entered
for Respondent.
III.

APPEAL ISSUES
There is no absolute entitlement to appeal a district court’s denial of a § 2254 petition.

Miller-El v. Cockrell, 537 U.S. 322, 335 (2003); Bradley v. Birkett, 156 F. App’x 771, 772 (6th
Cir. 2005). The Court must issue or deny a certificate of appealability (“COA”) when it enters a
final order adverse to a § 2254 petitioner. Rule 11, § 2254 Rules. A petitioner may not take an
appeal unless a circuit or district judge issues a COA. 28 TJ.S.C. § 2253(c)(1); Fed. R. App. P7
22(b)(1)
A COA may issue only if the petitioner has made a substantial showing of the denial of a
constitutional right, and the COA must indicate the specific issue or issues that satisfy the required
showing. 28TTS.C. §§ 2253(c)(2) & (3). A “substantial showing” is made when the petitioner
demonstrates that “reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further.” Miller-El, 537 U.S. at. 336 (internal quotation
marks omitted); see also Henley v. Bell, 308 F. App’x 989, 990 (6th Cir. 2009) (per curiam)
(same). A COA does not require a showing that the appeal will succeed. Miller-El, 537 U.S. at
337; Caldwell v. Lewis, 414 F. App’x 809,_814-15 (6th Cir. 2011). Courts should not issue a
COA as a matter of course. Bradley, U 56 F. App’x at 773.

28

Case 2:16-cv-01077-JTF-dkv Document 23 Filed 02/19/19 Page 29 of 29

PagelD 2492

In this case, there can be no question that the § 2254 Petition is meritless for the reasons
previously stated. Because any appeal by Petitioner on the issues raised in his § 2254 Petition
does not deserve attention, the Court DENIES a certificate of appealability.
Rule 24(a)(1) of the Federal Rules of Appellate Procedure provides that a party seeking
pauper status on appeal must first file a motion in the district court, along with a supporting
affidavit. However, if the district court certifies that an appeal would not be taken in good faith,
or otherwise denies leave to appeal in forma pauperis, the prisoner must file his motion to proceed
in forma pauperis in the appellate court. See Fed. R. App. P. 24(a) (4)-(5). In this case, for the
same reasons the Court denies a certificate of appealability, the Court determines that any appeal
would not be taken in good faith. It is therefore CERTIFIED, pursuant to Federal Rule..of
Appellate Procedure 24(a), that any appeal in this matter would not be taken in good faith, and
leave to appeal in forma pauperis is DENIED.
IT IS SO ORDERED this 19th day of February, 2019.

s/John T. Fowlkes, Jr.
JOHN T. FOWLKES, JR.
United States District Judge

7 If Petitioner files a notice of appeal, he must pay the full $505 appellate filing fee or file a
motion to proceed in forma pauperis and supporting affidavit in the Sixth Circuit Court of Appeals
within 30 days of the date of entry of this order. See Fed. R. App. P. 24(a)(5).
29

